                                                                                 -
                                  CLOSEOUT FOR M96020005

        This case came to OIG on February 26, 1996, w h e n , a program oficer
in NSF's                Division, informed us of a complaint b y i ( t h e
complainant) of t       h     e ~epartment(the department)het(-at
university). The complainant had alleged to the program officer that several unnamed
colleagues in her department were obstructing her NSF funded research.' We later learned
that the colleagues whose actions were the primary focus of the allegations were
            (the first subject), ht(-e                    second subject) band
                                                                             - ,
(the third subject). The program officer also informed us that the complainant had made
misconduct allegations at her university. In a February 28, 1996, letter,                    the
university's Vice Provost for Research, notified OIG that these allegations had substance and
that the university was undertaking an investigation. OIG agreed to delay independent review
of the allegations to give the university an opportunity to complete its investigation.

        OIG informed the program officer that she could intervene as necessary to ensure that
future progress under the award would be satisfactory, but that she should avoid addressing the
misconduct allegations and should refer any allegations of misconduct she received to OIG.
The program officer indicated that, having discussed the matter with the complainant, she
believed the complainant was making normal progress on her award and that no NSF                   I
intervention was required to enable the complainant to continue to do so. OIG noted that, in a     I
progress report to NSF made less than two months before the complainant contacted the
program officer, the complainant gave no indication that her progress was unsatisfactory.

        When the university's committee concluded its investigation, it reported that "an
unacceptable pattern of action based on non-normative understandings of the proper conduct of
research ha[d] become commonn in the department. The committee recommended "an attempt
to restructure the administration" of the department "rather than proceeding to specific charges
against specific individuals. " It also, however, "le[ft] open the issue of whether disciplinary
proceedings should be initiated in the future if the current problems, or similar ones,
continue." The committee proposed a one year monitoring period, after which, if it was




                                  -
satisfied with the department's progress in resolving its problems, the committee would
"recommend dropping the possibility of pursuing formal disciplinary charges. " The university
sent us the report and stated that it had adopted the committee's recommendations.


 The complainant was the PI for          entitled T - ' !
_I

                                      page 1 of 5                             M96-05
                                CLOSEOUT FOR M96020005

         After reviewing the university's report, OIG informed the university that the report did
not contain the information we needed to fulfill our obligation to independently assess the
university's conclusions and recommend appropriate NSF action. We noted that, among other
deficiencies, the report did not describe the specifk allegations investigated or contain a full
explanation of the investigation's findings, conclusions, and recommendations. We requested
that, if the university's ongoing monitoring might alter its findings and conclusions concerning
misconduct in science, the university send us its fmal report on the allegations after the
monitoring period had concluded. We stressed that our letter expressed no view about the
university's conclusions.

       The university decided to send us a revised report after the monitoring period had
ended. On the basis of the evidence in the revised report, OIG was able to accept the
university's conclusion that the actions detailed in the university's report, though some were ill
judged or inappropriate, did not seriously deviate from accepted practices for carrying out
research at this university and hence could not be considered misconduct in science.

Obstruction Allegations

        Most of the allegations that the university considered involved alleged obstruction of
the complainant's research. When the complainant agreed to join the university's faculty, the
university promised to provide certain laboratory equipment and facilities to enable her to do
her research. The complainant agreed to share some of her equipment and facilities with the
third subject when he was first hired. The complainant alleged that the third subject would not
relinquish her equipment and facilities when her research had progressed to the point that she
needed full use of them. She further alleged that, as chairs of the department, the first and
second subjects, along with other department members, attempted to misappropriate her
equipment and facilities and thereby obstructed her research. She alleged that this attempted
misappropriation persisted over an eight month period and that the university administration
did not act decisively to remedy the situation.

       The university concluded that "various other members of the [department] were wrong
to assert that they should have access to the equipment or that they should adjudicate who
should have access to the equipment." It found that the subjects and other members of the
department "were following what they believed (we think in error) to be acceptable
professional, departmental, and university procedures" and "that there was considerable
confusion" among certain university administrative officials with responsibilities for research
administration "regarding the nature of [equipment] usership rights, how they should be
determined and who had the authority to make decisions regarding them." However, the
university found that none of the scientists in the department had "acted with knowing malice"
to obstruct the complainant's research, and OIG likewise concluded that the pattern of their
actions indicated that their primary concern was to enable the third subject to progress in his
research.

       OIG decided that the actions of the various department and university officials needed
to be considered in light of the evidence that the university's customs governing rights to use

                                       page 2 of 5                              M96-05
                                         CLOSEOUT FOR M96020005

 equipment and facilities were ill defined. We decided that these officials might be considered
 negligent in failing to inquire further into the norms in the wider scientific community, but that
 their actions in this case could not be considered reckless. We concluded that the norms in this
 area are not easily available in codified form, that the relevant norms may permissibly vary
 somewhat among institutions where research is performed, and that the officials appropriately
 recognized their obligation to help the third subject secure access to needed equipment, even if
 they were mistaken in believing they could do so at the price of creating considerable
 inconvenience for the equipment's primary user. In light of these considerations, we
 concluded that the allegedly obstructive actions that the complainant experienced were not
 misconduct in science.

         OIG was pleased to note that the university has undertaken to develop an equipment use
 policy that will clarify the university's understanding of the rights and responsibilities of
 scientists and university administrators in this area. When we informed the university that we
 were closing this case, we expressed our hope that their new policy would recognize both the
 right of primary users to use their equipment.whenthey needed to do so and the obligation of
 primary users to share that equipment with other scientists whenever such sharing was feasible       I


 without significant cost to the primary user's work.

 Other Allegations

          The investigation committee also considered several other allegations. The complainant
 alleged that the third subject submitted a proposal2to NSF listing the complainant as a co-PI
 and signing the certification page for the complainant (i-e., indicating that the signature that
 appeared there was not actually hers) when the complainant had not reviewed the text of the
 proposal. The proposal sought NSF funds for an equipment purchase and was a revision of an
 earlier s~bmission.~   The committee concluded that "there was no misconduct" because it
 appeared that the third subject "believed he had [the complainant's] permission to sign in her
 absence." OIG noted in its letter to the university, a copy of which went to the third subject,
 that it is inappropriate for a PI to sign for a co-PI without explicit permission to do so. We
 also noted that the signatories to the proposal cover page should be in a position to carefully
 review the content of the proposal before signing. However, OIG concluded that under the
 circumstances the third subject's action;though undesirable, could not be considered
 misconduct in science. The third subject'slaction would have been more serious if (1) the
 complainant was unaware that a revision of their jointly submitted proposal was about to be
 submitted, (2) the complainant was unaware, in general, of its content, or (3) if the third
 subject had contravened a specific request by the complainant that the proposal not be sent to
 NSF unless she personally reviewed the text. In the absence of these or other aggravating



   The proposal,-s
                 a
                 w                    entitled "
&
"
-I                       In addition to the complainant, W
                                                         pan-d            w
                                                                          --er
 co-PIS for this proposal.
 'The earlier proposal was
 complainant was the PI for this proposal.


                                                 page 3 of 5                     M96-05
                                    CLOSEOUT FOR M96020005

conditions, we concluded that the third subject's action did not rise to the level of misconduct
in science.

        The complainant also alleged a variety of improprieties connected to the handling of a
proposal by the third subject to another government agencye4The fxst and second subjects
were co-PIS on this proposal, and the proposal requested funds to pay them summer salaries.
They nonetheless failed to recuse themselves from administrative decisions (concerning, for
example, the use of university owned equipment) affecting the proposal, and the complainant
alleged these decisions hindered her work. For reasons given above, OIG decided that, like
the subjects' other allegedly obstructive actions, the subjects' administrative decisions were
not, as such, misconduct in science.

        We further determined that the failure to properly manage the conflict of interests of
persons who participated in those decisions was an internal university matter. We determined
that in this case this failure violated no federal law or regulation and decided that it would be
inappropriate in this situation to recommend formal NSF action. However, because the facts
about this conflict of interests raised concerns about the care with which university officials
administered federal awards, we informed the university, in the letter we sent when we closed
this case, that we hoped that in the future officials at the university would be more sensitive to
conflicts of interests affecting the administration of NSF proposals and awards. We noted that
we were pleased that the first subject, in a letter commenting on the university's investigation
report, had indicated that one of the "lessons invaluable to [his] functioning as a chairman"
that this case had taught him was to be more sensitive to conflicts of interests. We expressed
our hope that officials at the university generally had learned this lesson.

        The complainant also alleged that the subjects supplied the other agency with false or
misleading information in their proposal and did not keep the other agency apprised of
changing circumstances that might affect its proposal and award decisions. Because these
allegations did not involve an NSF proposal or award, we concluded that they fell outside our
jurisdiction. Regarding these allegations, the university found that no misconduct had
occurred. Because the evidence in the report did not suggest that these allegations were well
founded and because we had evidence that responsible officials at the other agency were
knowledgeable about the allegations that affected their award, we did not inform the other
agency of these allegations.

        The complainant alleged that she had felt coerced to support a graduate student in the
department with her award funds, even though the student was not working on the award. The
investigation committee decided that "the issue was moot" because the complainant "had
signed the necessary paperwork." OIG noted that there was no evidence of actual coercion
and concluded that memories of these events could not be sufficiently reliable as to context and
detail to form the basis for NSF action concerning this allegation.



" The agency was the Air Force Office of Scientific &search.
                                            page 4 of 5
                                CLOSEOUT FOR M96020005

        The complainant made two allegations concerning inappropriate comments. One
allegation concerned comments made by a faculty colleague urging the complainant to make
what the complainant viewed as unjustified concessions. The other allegation concerned
discussions in which the third subject allegedly attempted to involve the complainant's students
in his dispute with the complainant. OIG agreed with the investigation committee that the
actions that were the basis of these allegations could not be considered misconduct in science
connected to an NSF proposal or award. The committee also dismissed two other allegations-
both concerning failures to consult the complainant about matters related to planned uses of her
laboratory space-as not rising to the level of misconduct in science. OIG accepted the
university's judgment concerning these allegations.

        The complainant informed OIG that a student at the universiv made an unauthorized
entry into her laboratory. She provided some evidence to indicate that the third subject
assisted the student. This matter has been addressed by the university police, but the
complainant believes that their investigation was inadequate. OIG decided not to pursue this
matter further because there was no evidence that the intrusion caused tangible harm to the
complainant's NSF-supported research or that any specific individual was trying to cause such
harm. Under these circumstances, this incident raised no significant concern about misconduct
in science.

       OIG informed the university that we were pleased td note that the university has
endeavored to help the complainant to recover from the disruptions to her NSF supported work
by providing her with additional resources to facilitate her future research progress.

        This investigation is closed and no further action will be taken on this case.

CC:   IG, AIG-0




 His name is   --                       page 5 of 5
